No. _______
_________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_________________________________________
AUSTIN JOSEPH CAMPBELL, Petitioner
v.
STATE OF MISSOURI, Respondent
_________________________________________
On Petition for Writ of Certiorari
to the Missouri Court of Appeals, Western District
_________________________________________
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
_________________________________________
Elizabeth Unger Carlyle*
Carlyle Parish LLC
6320 Brookside Plaza #516
Kansas City, Missouri 64113
*Counsel of Record
ATTORNEYS FOR PETITIONER

Index To Appendix
Opinion of court of appeals ..................................................................... 1a
Order denying rehearing ....................................................................... 32a
Order denying application to transfer .................................................. 33a
Jury instruction No. 5 (redacted) .......................................................... 34a

State v. Campbell, 600 S.W.3d 780 (2020)

600 S.W.3d 780
Missouri Court of Appeals, Western District.
STATE of Missouri, Respondent,
v.
Austin Joseph CAMPBELL, Appellant.
WD 82209
|
OPINION FILED: February 11, 2020
|
Motion for Rehearing and/or Transfer to the Supreme Court Denied March 31, 2020
|
Application for Transfer to Supreme Court Denied June 30, 2020

Synopsis
Background: Defendant was convicted in the Circuit Court, Boone County, Jeff Harris, J., of
rape in the first degree. Defendant appealed.

Holdings: The Court of Appeals, Martin, J., held that:
[1]

evidence was sufficient to establish that victim was incapacitated at the time defendant engaged
in sexual intercourse, so as to support the rape conviction;
[2]

trial court did not violate defendant’s rights under Confrontation Clause in applying rape shield
law to prevent him from cross-examining witness about witness’s prior sexual encounter with
victim for the purpose of impeachment;
[3]

admission of evidence of an unwanted sexual encounter between defendant and a man on the
day prior to the alleged rape did not violate rape shield statute or defendant’s due process right to
fair trial;
[4]

error, if any, in admission of testimony that witness did not think it was appropriate for
defendant to enter victim’s room at night did not require reversal under plain error review;
[5]

state’s argument during rebuttal closing that jury would need to believe victim was lying to find
defendant not guilty was not a misstatement of law; and
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1a

1

State v. Campbell, 600 S.W.3d 780 (2020)

[6]

trial court did not violate defendant’s Sixth Amendment right to counsel by prohibiting defense
counsel from using a flip chart during closing argument that would have elaborated on the
definition of beyond a reasonable doubt.
Affirmed.

West Headnotes (34)

[1]

Sex Offenses Capacity to consent
352HSex Offenses
352HVIEvidence
352HVI(F)Weight and Sufficiency
352HVI(F)1In General
352Hk271Consent
352Hk273Capacity to consent

Evidence was sufficient to establish that victim was incapacitated at the time defendant
engaged in sexual intercourse, so as to support conviction for rape in the first degree,
although victim lacked memory of events prior to rape; victim had been drinking and had
to be assisted to her room, victim did not recall speaking with defendant or giving consent,
victim was asleep at the time the intercourse began, and victim awoke to find defendant
sexually penetrating her. Mo. Ann. Stat. §§ 556.061(13), 566.030.1.

[2]

Criminal Law Reasonable doubt
110Criminal Law
110XXIVReview
110XXIV(P)Verdicts
110k1159Conclusiveness of Verdict
110k1159.2Weight of Evidence in General
110k1159.2(7)Reasonable doubt

An appellate court’s review of sufficiency of the evidence to support a conviction is limited
to whether the State has introduced sufficient evidence from which a reasonable juror
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2a

2

State v. Campbell, 600 S.W.3d 780 (2020)

could have found each element of the crime beyond a reasonable doubt.

[3]

Criminal Law Evidence accepted as true
Criminal Law Inferences or deductions from evidence
Criminal Law Weighing evidence
110Criminal Law
110XXIVReview
110XXIV(M)Presumptions
110k1144Facts or Proceedings Not Shown by Record
110k1144.13Sufficiency of Evidence
110k1144.13(4)Evidence accepted as true
110Criminal Law
110XXIVReview
110XXIV(M)Presumptions
110k1144Facts or Proceedings Not Shown by Record
110k1144.13Sufficiency of Evidence
110k1144.13(5)Inferences or deductions from evidence
110Criminal Law
110XXIVReview
110XXIV(P)Verdicts
110k1159Conclusiveness of Verdict
110k1159.2Weight of Evidence in General
110k1159.2(9)Weighing evidence

To determine whether the evidence presented is sufficient to support a conviction and to
withstand a motion for judgment of acquittal, the appellate court does not weigh the
evidence but, rather, accepts as true all evidence tending to prove guilt together with all
reasonable inferences that support the verdict, and ignores all contrary evidence and
inferences.

[4]

Criminal Law Weight of Evidence in General
110Criminal Law
110XXIVReview
110XXIV(P)Verdicts
110k1159Conclusiveness of Verdict
110k1159.2Weight of Evidence in General
110k1159.2(1)In general

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3a

3

State v. Campbell, 600 S.W.3d 780 (2020)

Review of the sufficiency of the evidence to support a criminal conviction is governed by
principles of due process. U.S. Const. Amend. 14.

[5]

Criminal Law Reasonable doubt
110Criminal Law
110XXIVReview
110XXIV(P)Verdicts
110k1159Conclusiveness of Verdict
110k1159.2Weight of Evidence in General
110k1159.2(7)Reasonable doubt

Appellate review of the sufficiency of the evidence to support a criminal conviction is
limited to a determination of whether there is sufficient evidence from which a reasonable
juror might have found the defendant guilty beyond a reasonable doubt.

[6]

Criminal Law Right of Accused to Confront Witnesses
110Criminal Law
110XXTrial
110XX(C)Reception of Evidence
110k662Right of Accused to Confront Witnesses
110k662.1In general

The protections provided by the witness confrontation provision of the state constitution
are coextensive with those of the Sixth Amendment. U.S. Const. Amend. 6; Mo. Const.
art. 1, § 18(a).
1 Cases that cite this headnote

[7]

Criminal Law Cross-examination and impeachment
110Criminal Law

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4a

4

State v. Campbell, 600 S.W.3d 780 (2020)

110XXTrial
110XX(C)Reception of Evidence
110k662Right of Accused to Confront Witnesses
110k662.7Cross-examination and impeachment

The Confrontation Clause is implicated when there is a specific statutory or court-imposed
restriction at trial on the scope of questioning. U.S. Const. Amend. 6; Mo. Const. art. 1, §
18(a).

[8]

Criminal Law Cross-examination and impeachment
110Criminal Law
110XXTrial
110XX(C)Reception of Evidence
110k662Right of Accused to Confront Witnesses
110k662.7Cross-examination and impeachment

While a meaningful opportunity for cross-examination is necessary, the Confrontation
Clause guarantees only an opportunity for effective cross-examination, not crossexamination that is effective in whatever way, and to whatever extent, the defense might
wish. U.S. Const. Amend. 6; Mo. Const. art. 1, § 18(a).

[9]

Criminal Law Reception of evidence
Criminal Law Sufficiency and Scope of Motion
110Criminal Law
110XXIVReview
110XXIV(E)Presentation and Reservation in Lower Court of Grounds of Review
110XXIV(E)1In General
110k1035Proceedings at Trial in General
110k1035(10)Reception of evidence
110Criminal Law
110XXIVReview
110XXIV(E)Presentation and Reservation in Lower Court of Grounds of Review
110XXIV(E)1In General
110k1044Motion Presenting Objection
110k1044.2Sufficiency and Scope of Motion
110k1044.2(1)In general

Defendant’s Confrontation Clause claim, that application of rape shield law to prevent him
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5a

5

State v. Campbell, 600 S.W.3d 780 (2020)

from cross-examining witness for the purpose of impeachment, was not preserved for
appellate review in rape case, where defendant did not raise claim in his pre-trial motion
seeking to admit evidence at issue, the pre-trial hearing on that motion, or at trial, and the
claim first appeared in defendant’s post-judgment motion for judgment of acquittal and
alternative motion for new trial. U.S. Const. Amend. 6; Mo. Const. art. 1, § 18(a); Mo.
Ann. Stat. § 491.015.

[10] Criminal Law Review De Novo
110Criminal Law
110XXIVReview
110XXIV(L)Scope of Review in General
110XXIV(L)13Review De Novo
110k1139In general

Whether a criminal defendant’s rights were violated under the Confrontation Clause is a
question of law that is reviewed de novo. U.S. Const. Amend. 6; Mo. Const. art. 1, § 18(a).

[11] Criminal Law Constitutional questions
110Criminal Law
110XXIVReview
110XXIV(E)Presentation and Reservation in Lower Court of Grounds of Review
110XXIV(E)1In General
110k1030Necessity of Objections in General
110k1030(2)Constitutional questions

In order to preserve a constitutional issue for appellate review, it must be raised at the
earliest time consistent with good pleading and orderly procedure and must be kept alive
during the course of the proceedings.

[12] Criminal Law Constitutional questions
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6a

6

State v. Campbell, 600 S.W.3d 780 (2020)

110Criminal Law
110XXIVReview
110XXIV(E)Presentation and Reservation in Lower Court of Grounds of Review
110XXIV(E)1In General
110k1030Necessity of Objections in General
110k1030(2)Constitutional questions

To be preserved for appellate review, constitutional claims must be raised sufficiently early
in the process to allow the trial court to identify and rule on the issue and to give adequate
notice to the opposing party.

[13] Criminal Law Necessity of Objections in General
110Criminal Law
110XXIVReview
110XXIV(E)Presentation and Reservation in Lower Court of Grounds of Review
110XXIV(E)1In General
110k1030Necessity of Objections in General
110k1030(1)In general

Under plain error review, the appellate court must determine whether the alleged error is
evident, obvious, and clear error that facially establishes substantial grounds for believing
that manifest injustice or a miscarriage of justice has occurred.

[14] Criminal Law Necessity of Objections in General
110Criminal Law
110XXIVReview
110XXIV(E)Presentation and Reservation in Lower Court of Grounds of Review
110XXIV(E)1In General
110k1030Necessity of Objections in General
110k1030(1)In general

In plain error review, if error is found, the appellate court must then determine if the error
actually resulted in a miscarriage of justice or manifest injustice.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7a

7

State v. Campbell, 600 S.W.3d 780 (2020)

[15] Criminal Law Cross-examination and impeachment
Sex Offenses Prior conduct involving persons other than accused
110Criminal Law
110XXTrial
110XX(C)Reception of Evidence
110k662Right of Accused to Confront Witnesses
110k662.7Cross-examination and impeachment
352HSex Offenses
352HVIEvidence
352HVI(D)Admissibility of Victim’s Sexual History; Rape Shield
352Hk227Particular Matters
352Hk232Prior conduct involving persons other than accused

Trial court did not violate defendant’s rights under Confrontation Clause in applying rape
shield law to prevent him from cross-examining witness about witness’s prior sexual
encounter with victim for the purpose of impeachment, in rape trial, although defendant
argued that witness’s prior sexual encounter with victim was relevant to show bias;
defendant could not explain why the prior encounter would give witness a motive to
fabricate testimony about defendant’s appearance, demeanor, and comments during
conversation that took place after the alleged rape, the trial court could reasonably have
concluded that the connection between purported bias and the prior sexual encounter was
tenuous, and there was significant risk that permitting cross-examination would thwart the
purpose of the rape shield law. U.S. Const. Amend. 6; Mo. Const. art. 1, § 18(a); Mo. Ann.
Stat. § 491.015.

[16] Witnesses Control and discretion of court
410Witnesses
410IIIExamination
410III(B)Cross-Examination
410k267Control and discretion of court

Trial courts have broad discretion in limiting the scope of cross-examination.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8a

8

State v. Campbell, 600 S.W.3d 780 (2020)

[17] Criminal Law Cross-examination and impeachment
110Criminal Law
110XXTrial
110XX(C)Reception of Evidence
110k662Right of Accused to Confront Witnesses
110k662.7Cross-examination and impeachment

Trial judges retain wide latitude insofar as the Confrontation Clause is concerned to impose
reasonable limits on cross examination based on concerns about, among other things,
harassment, prejudice, confusion of the issues, the witness’s safety, or interrogation that is
repetitive or only marginally relevant. U.S. Const. Amend. 6; Mo. Const. art. 1, § 18(a).

[18] Sex Offenses Admissibility of Victim’s Sexual History; Rape Shield
Witnesses Cross-Examination for Purpose of Impeachment
352HSex Offenses
352HVIEvidence
352HVI(D)Admissibility of Victim’s Sexual History; Rape Shield
352Hk221In general
410Witnesses
410IVCredibility and Impeachment
410IV(B)Character and Conduct of Witness
410k348Cross-Examination for Purpose of Impeachment
410k349In general

The theory of the rape shield statute, that prior sexual activity is not probative of the issue
of rape unless one of the statutory exceptions obtains, applies not only to the victim’s
testimony on cross-examination but also to the testimony of other witnesses. Mo. Ann.
Stat. § 491.015.1.

[19] Sex Offenses Prior conduct involving persons other than accused
Witnesses Cross-Examination for Purpose of Impeachment
352HSex Offenses
352HVIEvidence

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9a

9

State v. Campbell, 600 S.W.3d 780 (2020)

352HVI(D)Admissibility of Victim’s Sexual History; Rape Shield
352Hk227Particular Matters
352Hk232Prior conduct involving persons other than accused
410Witnesses
410IVCredibility and Impeachment
410IV(B)Character and Conduct of Witness
410k348Cross-Examination for Purpose of Impeachment
410k349In general

Cross-examination regarding witness’s prior sexual encounter with rape victim was not
admissible as impeachment evidence under relevance provision of rape shield law;
relevance provision did not supply an independent statutory basis for admitting specific
instances of a complaining witness’s sexual conduct, provision had to be read in
conjunction with the statutorily enumerated exceptions of the rape shield law, and
defendant had not argued that any exceptions applied. Mo. Ann. Stat. §§ 491.015.1(1-4),
491.015.2.

[20] Constitutional Law Other acts and offenses
Sex Offenses Prior conduct involving accused
92Constitutional Law
92XXVIIDue Process
92XXVII(H)Criminal Law
92XXVII(H)5Evidence and Witnesses
92k4669Other acts and offenses
352HSex Offenses
352HVIEvidence
352HVI(D)Admissibility of Victim’s Sexual History; Rape Shield
352Hk227Particular Matters
352Hk231Prior conduct involving accused

Admission of evidence of an unwanted sexual encounter between defendant and a man on
the day prior to the alleged rape did not violate rape shield statute or defendant’s due
process right to fair trial in rape trial; rape shield statute only excluded evidence of specific
instances of complaining witness’s prior sexual conduct, not criminal defendant’s, and
rationale behind rape shield statute would not be served by extending its protective reach
to defendants. U.S. Const. Amend. 14; Mo. Ann. Stat. § 491.015.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10a

10

State v. Campbell, 600 S.W.3d 780 (2020)

[21] Criminal Law Opinion evidence
110Criminal Law
110XXIVReview
110XXIV(E)Presentation and Reservation in Lower Court of Grounds of Review
110XXIV(E)1In General
110k1036Evidence
110k1036.6Opinion evidence

Trial court’s error, if any, in admission of witness testimony that witness did not think it
was appropriate for defendant to enter victim’s room at night did not require reversal under
plain error review in rape case, even if the witness’s testimony was plainly erroneous lay
opinion; witness, who personally observed events, testified to her matter of fact
comprehension of what she had seen, defendant conceded that the testimony, standing
alone, would not support reversal of his conviction, and no other errors existed to cumulate
with the claimed error.

[22] Criminal Law Matters directly in issue
110Criminal Law
110XVIIEvidence
110XVII(R)Opinion Evidence
110k449Witnesses in General
110k450Matters directly in issue

Generally, a lay witness must state facts from which the jury forms an opinion and may
not testify regarding his or her opinion on a matter in dispute.

[23] Criminal Law Special Knowledge as to Subject-Matter
110Criminal Law
110XVIIEvidence
110XVII(R)Opinion Evidence
110k449Witnesses in General
110k452Special Knowledge as to Subject-Matter
110k452(1)In general

An exception to the general rule prohibiting a lay witness from testifying as to his or her
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11a

11

State v. Campbell, 600 S.W.3d 780 (2020)

opinion on a matter in dispute allows a lay witness to provide an opinion if the witness
possesses knowledge that is not available to the jury and that would be helpful to the jury
to determine a disputed issue.

[24] Criminal Law Inferences or Impressions from Collective Facts
110Criminal Law
110XVIIEvidence
110XVII(R)Opinion Evidence
110k449Witnesses in General
110k451Inferences or Impressions from Collective Facts
110k451(1)In general

A witness who personally observed events may testify to his matter of fact comprehension
of what he has seen in a descriptive manner which is actually a conclusion, opinion or
inference, if the inference is common and accords with ordinary experiences of everyday
life; such practice is justified by convenience as a short-hand rendition of a composite
situation and by necessity to avoid losing evidence where it would be extremely difficult
or impossible for the witness to convey an accurate sense of his or her observations if
limited to a statement of facts in the traditional sense.

[25] Criminal Law Statements regarding applicable law
Criminal Law Comments on evidence or witnesses
110Criminal Law
110XXXICounsel
110XXXI(F)Arguments and Statements by Counsel
110k2164Rebuttal Argument; Responsive Statements and Remarks
110k2171Statements regarding applicable law
110Criminal Law
110XXXICounsel
110XXXI(F)Arguments and Statements by Counsel
110k2164Rebuttal Argument; Responsive Statements and Remarks
110k2174Comments on evidence or witnesses

State’s argument during rebuttal closing in rape trial, stating that the jury would need to
believe that victim was lying to find defendant not guilty, was not a misstatement of law
and did not improperly shift burden of proof to defendant; state was entitled to argue
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12a

12

State v. Campbell, 600 S.W.3d 780 (2020)

relative witness credibility during a closing argument, as well as evidence and reasonable
inferences from that evidence.

[26] Criminal Law Discretion of court in controlling argument
110Criminal Law
110XXXICounsel
110XXXI(F)Arguments and Statements by Counsel
110k2061Control of Argument by Court
110k2063Discretion of court in controlling argument

The trial court maintains broad discretion in controlling closing argument.

[27] Criminal Law Statements as to Facts, Comments, and Arguments
110Criminal Law
110XXIVReview
110XXIV(Q)Harmless and Reversible Error
110k1171Arguments and Conduct of Counsel
110k1171.1In General
110k1171.1(2)Statements as to Facts, Comments, and Arguments
110k1171.1(2.1)In general

A conviction will be reversed for statements made in a closing argument only if it is
established that the complained of comments had a decisive effect on the jury’s
determination.

[28] Criminal Law Arguments and conduct of counsel
110Criminal Law
110XXIVReview
110XXIV(L)Scope of Review in General
110XXIV(L)2Matters or Evidence Considered

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13a

13

State v. Campbell, 600 S.W.3d 780 (2020)

110k1134.16Arguments and conduct of counsel

Closing arguments must be examined by the appellate court in the context of the entire
record to determine whether alleged improper comments may have had an effect on the
jury’s determination.

[29] Criminal Law Credibility and Character of Witnesses; Bolstering
110Criminal Law
110XXXICounsel
110XXXI(F)Arguments and Statements by Counsel
110k2093Comments on Evidence or Witnesses
110k2098Credibility and Character of Witnesses; Bolstering
110k2098(1)In general

A prosecutor is allowed to comment on witnesses’ credibility during closing argument.

[30] Criminal Law Comments on Evidence or Witnesses
Criminal Law Inferences from and Effect of Evidence
110Criminal Law
110XXXICounsel
110XXXI(F)Arguments and Statements by Counsel
110k2093Comments on Evidence or Witnesses
110k2094In general
110Criminal Law
110XXXICounsel
110XXXI(F)Arguments and Statements by Counsel
110k2102Inferences from and Effect of Evidence
110k2103In general

During a closing argument, a prosecutor can argue the evidence, and the reasonable
inferences from that evidence.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14a

14

State v. Campbell, 600 S.W.3d 780 (2020)

[31] Criminal Law Exhibits and illustrations
110Criminal Law
110XXXICounsel
110XXXI(F)Arguments and Statements by Counsel
110k2076Statements as to Facts and Arguments
110k2079Exhibits and illustrations

Trial court did not violate defendant’s Sixth Amendment right to counsel by prohibiting
defense counsel during rape trial from using a flip chart during closing argument that
would have elaborated on the definition of beyond a reasonable doubt by placing the
standard on a continuum amongst other standards; counsel’s planned used of flip chart
would have crossed line into an improper attempt to elaborate on the authorized definition
of reasonable doubt. U.S. Const. Amend. 6.

[32] Criminal Law Arguments and statements by counsel
110Criminal Law
110XXIVReview
110XXIV(N)Discretion of Lower Court
110k1152Conduct of Trial in General
110k1152.19Counsel
110k1152.19(7)Arguments and statements by counsel

The Court of Appeals reviews a trial court’s rulings during closing argument for an abuse
of discretion.

[33] Criminal Law Control of Argument by Court
110Criminal Law
110XXXICounsel
110XXXI(F)Arguments and Statements by Counsel
110k2061Control of Argument by Court
110k2062In general

The trial court has a duty to restrict arguments that misstate the law.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15a

15

State v. Campbell, 600 S.W.3d 780 (2020)

[34] Criminal Law Statements Regarding Applicable Law
110Criminal Law
110XXXICounsel
110XXXI(F)Arguments and Statements by Counsel
110k2084Statements Regarding Applicable Law
110k2085In general

An attorney is free to discuss reasonable doubt during closing arguments, but he cannot
attempt to define reasonable doubt.

*784 Appeal from the Circuit Court of Boone County, Missouri, The Honorable Jeff Harris,
Judge
Attorneys and Law Firms
Daniel N. McPherson, Jefferson City, MO, for respondent.
Elizabeth U. Carlyle, Kansas City, MO, for appellant.
Before Special Division: Zel M. Fischer, Special Judge, Presiding, Cynthia L. Martin, Judge and
Gary D. Witt, Judge
Opinion
Cynthia L. Martin, Judge
Austin Campbell (“Campbell”) appeals his conviction of rape in the first degree. Campbell
challenges the sufficiency of the evidence to support his conviction; the trial court’s restriction of
his cross-examination of a witness and of his closing argument; the trial court’s admission of
evidence; and the trial court’s failure to provide a curative instruction during the State’s closing
argument. Finding no error, we affirm.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16a

16

State v. Campbell, 600 S.W.3d 780 (2020)

Factual and Procedural Background1
On January 17, 2016, Victim returned to the University of Missouri-Columbia after *785 an
extended break between semesters. Victim lived in an on-campus dormitory. Victim and her
friends organized a party in Victim’s dorm room. A group message invited a large number of
other dormitory residents to the party. Campbell, among other residents, attended the party, where
he drank whiskey from a water bottle.
During the evening, those in attendance at the party moved from Victim’s dormitory room to
another room down the hall. Victim, who had been drinking, fell asleep on a bed. Eventually,
Victim’s friend assisted Victim back to her own room, where she fell asleep. The party ended
shortly thereafter.
Lauren Lahey (“Lahey”) lived in a dorm room down the hall from Victim. Lahey left her room to
use the hallway restroom and saw Campbell standing outside of Victim’s room. Campbell said he
was missing his water bottle and thought he might have left it in Victim’s room. Lahey looked in
Victim’s room, which was unlocked, but could not find the water bottle. Victim was asleep. Lahey
told Campbell she would look for the water bottle in the morning. Lahey and Campbell went
different directions down the hallway. After using the restroom, Lahey again checked on Victim,
who was still asleep.
Campbell later entered Victim’s room. Victim awoke to find Campbell on top of her, and having
sexual intercourse with her. Victim pushed Campbell onto the floor. Victim fled to the hallway
bathroom. When she returned to her room, Victim found Campbell sitting on the floor. Victim
ordered Campbell to leave, and locked her door.
Later that evening, Campbell saw Tanner Stetzel (“Stetzel”) near the dormitory lounge. Campbell
asked to speak with Stetzel alone. Stetzel described Campbell’s appearance as sweaty and
disheveled. Campbell told Stetzel that he had just finished “tucking in” Victim. When Stetzel
asked “why,” Campbell said because “that’s what friends do,” and walked away.
The next day, Victim went to the hospital and underwent a sexual assault examination. Victim’s
injuries were consistent with the sexual assault she described. Victim reported the incident to the
police. Campbell was arrested and charged with rape in the first degree, and burglary in the first
degree.
At Campbell’s first trial, the jury was unable to reach a verdict. The State dropped the burglary
charge and indicated its intent to retry Campbell on the charge of rape in the first degree. Prior to
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17a

17

State v. Campbell, 600 S.W.3d 780 (2020)

his second trial, Campbell filed a motion pursuant to section 491.015.32 seeking permission to
interrogate Stetzel about Victim’s prior sexual encounter with Stetzel. Following a hearing, the
trial court denied Campbell’s motion.
At Campbell’s second trial, the jury found Campbell guilty of rape in the first degree, and the trial
court entered a judgment of conviction and sentence. Campbell filed this timely appeal.

Analysis
Campbell raises six points on appeal challenging the sufficiency of the evidence to support his
conviction; the trial court’s restriction of his cross-examination of Stetzel; the trial court’s
admission of evidence of Campbell’s sexual encounter with a man; the trial court’s admission of
lay opinion evidence from Lahey; the trial court’s failure to provide a curative instruction during
the State’s closing argument; and the trial court’s restriction of *786 Campbell’s closing
argument. We address each point in turn.

Point One
[1]

Campbell’s first point on appeal argues that there was insufficient evidence to support his
conviction of rape in the first degree.
[2] [3]

Our “review of sufficiency of the evidence is limited to whether the State has introduced
sufficient evidence from which a reasonable juror could have found each element of the crime
beyond a reasonable doubt.” State v. Ajak, 543 S.W.3d 43, 46 (Mo. banc 2018) (quotation
omitted). “To determine whether the evidence presented was sufficient to support a conviction
and to withstand a motion for judgment of acquittal, this Court does not weigh the evidence but,
rather, accept[s] as true all evidence tending to prove guilt together with all reasonable inferences
that support the verdict, and ignore[s] all contrary evidence and inferences.” Id. (quotations
omitted) (alterations in original).
“A person commits the offense of rape in the first degree if he or she has sexual intercourse with
another person who is incapacitated[.]” Section 566.030.1. Campbell challenges the sufficiency
of the evidence to establish that Victim was incapacitated.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18a

18

State v. Campbell, 600 S.W.3d 780 (2020)

“Incapacitated” is defined as the “physical or mental condition, temporary or permanent, in which
a person is unconscious, unable to appraise the nature of such person’s conduct, or unable to
communicate unwillingness to an act.” Section 556.061(13). Given this definition, sufficient
evidence permitted the jury to find that Victim was incapacitated at the time Campbell had
intercourse with her. Victim had been drinking and had to be assisted to her own room. Victim
was asleep in her room when Lahey entered the room on two occasions. This was not long before
Campbell entered Victim’s room. Victim awoke to find Campbell on top of her, kissing her, and
sexually penetrating her. Victim testified that Campbell did not have permission to have sexual
intercourse with her. Victim testified that after she awoke, she pushed Campbell off of her and
retreated to a bathroom.
Campbell asserts that this evidence was insufficient to establish that Victim was incapacitated
because “the only evidence presented [on incapacity] was that [Victim] did not recall speaking
with [ ] Campbell or giving consent and believed she was asleep at the time the intercourse began.”
Campbell contends that Victim’s “lack of memory of what happened” is “equally consistent with
the fact that, as the result of her intoxication, she did not later remember the beginning of the
encounter,” thus the “two inference” rule operates to preclude a finding of guilt beyond a
reasonable doubt. [Appellant’s Brief, pp. 21-22]. Campbell’s argument relies on State v. Alul, 948
S.W.2d 215 (Mo. App. E.D. 1997), and its discussion of the equally valid inferences rule.
[4] [5]

Campbell’s reliance on Alul is unavailing. The equally valid inferences rule has been
abrogated. State v. Chaney, 967 S.W.2d 47, 54 (Mo. banc 1998) (holding that “[t]he equally valid
inferences rule was effectively abolished”); State v. Freeman, 269 S.W.3d 422, 424, n. 4 (Mo.
banc 2008) (“In Chaney, this Court expressly abrogated the ‘equally valid inferences rule.’ ”); see
also State v. Hudson, 970 S.W.2d 855, 859 (Mo. App. S.D. 1998) (recognizing that Alul’s
application of the two inference rule was abrogated by Chaney). Instead, review of the sufficiency
of the evidence to support a criminal conviction is governed by principles of due process. See
*787 Jackson v. Virginia, 443 U.S. 307, 318-19, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979); State v.
Grim, 854 S.W.2d 403, 405 (Mo. banc 1993); Chaney, 967 S.W.2d at 52. Thus, “appellate review
is limited to a determination of whether there is sufficient evidence from which a reasonable juror
might have found the defendant guilty beyond a reasonable doubt.” Chaney, 967 S.W.2d at 52
(citing Grim, 854 S.W.2d at 405).
Given this standard of review, there was sufficient evidence to find that Victim was incapacitated
at the time Campbell had sexual intercourse with her.
Point One is denied.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19a

19

State v. Campbell, 600 S.W.3d 780 (2020)

Point Two
[6]

Campbell’s second point on appeal argues that his constitutional rights were violated when the
trial court refused to permit him to cross-examine Stetzel about Stetzel’s prior sexual encounter
with Victim for the purpose of impeachment. Specifically, Campbell argues that his rights to
effectively confront and cross-examine witnesses pursuant to the Sixth Amendment, and to
Missouri Constitution Article I, section 18(a),3 were violated.
In prosecutions involving rape in the first degree and other criminalized sexual conduct, section
491.015.1 (known as the rape shield law) prohibits the introduction of “evidence of specific
instances of the complaining witness’ prior sexual conduct ...” unless the specific instance falls
within one of four enumerated exceptions. Section 491.015.1(1)-(4). Even then, section 491.015.2
provides that “[e]vidence of the sexual conduct of the complaining witness offered under this
section is admissible to the extent that the court finds the evidence relevant to a material fact or
issue.” See State v. Jones, 716 S.W.2d 799, 800 (Mo. banc 1986) (holding that “subsection 2 [of
section 491.015] is directed only at the exceptions set forth in [section 491.015.1] (1), (2), (3), and
(4),” such that evidence offered under the exceptions to section 491.015.1 is admissible “only ‘to
the extent that the court finds [it] relevant to a material fact or issue’ ”); see also State v. Rycraw,
507 S.W.3d 47, 56-57 (Mo. App. E.D. 2016) (“Generally, evidence is not independently
admissible under the relevance test in Section 491.015.2; thus an express exception under
subsection 1 must be met before proceeding to the relevance analysis under subsection 2.”); State
v. Gorman, 468 S.W.3d 428, 432-33 (Mo. App. W.D. 2015).
Section 491.015.3 describes the procedure to be followed by a defendant who proposes to offer
evidence of the sexual conduct of a complaining witness. Campbell followed that procedure by
filing a pre-trial motion accompanied by an offer of proof. In his motion, Campbell requested
permission pursuant to section 491.015 to offer evidence that Victim and Stetzel had a sexual
encounter. Campbell did not argue that this evidence fell within one of the four exceptions set
forth in section 491.015.1(1)-(4). Instead, Campbell’s motion argued that the evidence was
independently admissible pursuant to section 491.015.2, “because the Rape Shield Law does not
preclude the introduction of evidence offered to impeach the credibility of a witness.”4 Campbell
argued that he *788 should be entitled to impeach Stetzel because Stetzel previously testified
during a deposition that he had a “platonic” relationship with Victim, and then later admitted that
he and Victim had a single sexual encounter more than four months prior to the incident involving
Campbell. Campbell argued that Stetzel’s testimony about the prior sexual encounter with Victim
established Stetzel’s bias, or motivation to fabricate.
The trial court denied Campbell’s section 491.015 motion. At trial, Campbell made a similar offer
of proof at trial in advance of Stetzel’s testimony. The trial court once again refused to permit
Campbell to cross-examine Stetzel about the prior sexual encounter with Victim for the purpose
of impeachment.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

20a

20

State v. Campbell, 600 S.W.3d 780 (2020)

[7] [8]

Campbell’s point on appeal now argues that application of section 491.015 to deprive him of
the ability to impeach Stetzel violated his constitutional right to confront witnesses. The
Confrontation Clause is implicated “when there is ‘a specific statutory or court-imposed
restriction at trial on the scope of questioning.’ ” State ex rel. White v. Gray, 141 S.W.3d 460, 464
(Mo. App. W.D. 2004) (quoting Pennsylvania v. Ritchie, 480 U.S. 39, 54, 107 S.Ct. 989, 94
L.Ed.2d 40 (1987)). “While a meaningful opportunity for cross-examination is necessary, ‘the
Confrontation Clause guarantees only an opportunity for effective cross-examination, not crossexamination that is effective in whatever way, and to whatever extent, the defense might wish.’ ”
State v. Perry, 275 S.W.3d 237, 244 (Mo. banc 2009) (quoting United States v. Owens, 484 U.S.
554, 557, 108 S.Ct. 838, 98 L.Ed.2d 951 (1988)).
[9] [10]

Ordinarily, “whether a criminal defendant’s rights were violated under the Confrontation
Clause ... is a question of law that this Court reviews de novo.” State v. March, 216 S.W.3d 663,
664-65 (Mo. banc 2007) (citing State v. Justus, 205 S.W.3d 872, 878 (Mo. banc 2006)). That
assumes, however, that Campbell’s constitutional challenge has been properly preserved.
[11] [12]

“ ‘[T]he rule is clearly established that in order to preserve a constitutional issue for
appellate review, it must be raised at the earliest time consistent with good pleading and orderly
procedure and must be kept alive during the course of the proceedings.’ ” Kirk v. State, 520 S.W.3d
443, 457 (Mo. banc 2017) (quoting State v. Liberty, 370 S.W.3d 537, 546 (Mo. banc 2012)).
Constitutional claims must be raised “ ‘sufficiently early in the process to allow the trial court to
identify and rule on the issue and to give adequate notice to the opposing party.’ ” Id. (quoting In
re Care & Treatment of Schottel, 159 S.W.3d 836, 841 n. 3 (Mo. banc 2005)). Here, Campbell
did not raise a Confrontation Clause claim in his written section 491.015 motion, during the pretrial hearing on that motion, or at trial. Campbell’s claim of a Confrontation Clause violation first
appeared in his post-judgment Motion for Judgment of Acquittal and Alternative Motion for New
Trial. This was not sufficient to preserve Campbell’s constitutional claim for appellate review.
[13] [14]

Campbell has not sought plain error review of his constitutional claim, “and the claim falls
short of meriting relief under that standard.” Id. at 457-58. Under plain error review, we must
determine whether the alleged error is “evident, obvious, and clear error” that “facially establishes
*789 substantial grounds for believing that manifest injustice or a miscarriage of justice” has
occurred. State v. Ellis, 538 S.W.3d 335, 337 (Mo. App. W.D. 2017) (citing State v. Baumruk,
280 S.W.3d 600, 607 (Mo. banc 2009)). If error is found, then we must determine if the error
actually resulted in a miscarriage of justice or manifest injustice. Id. Campbell cannot demonstrate
evident, obvious, and clear error.
[15]

The Confrontation Clause did not require the trial court to permit Campbell to cross-examine
Stetzel about his prior sexual encounter with Victim for the purpose of impeachment. “The
[United States] Supreme Court has never ‘held--or even suggested--that the longstanding rules
restricting the use of specific instances and extrinsic evidence to impeach a witness’s credibility
pose constitutional problems.’ ” State v. Raines, 118 S.W.3d 205, 212-13 (Mo. App. W.D. 2003)
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

21a

21

State v. Campbell, 600 S.W.3d 780 (2020)

(quoting Hogan v. Hanks, 97 F.3d 189, 191 (7th Cir. 1996)). “[T]he Supreme Court has held that
the Confrontation Clause confers a right to cross-examine witnesses to expose bias or a motive to
fabricate.” Id. (citing Olden v. Kentucky, 488 U.S. 227, 231, 109 S.Ct. 480, 102 L.Ed.2d 513
(1988)). Though Campbell argues that Stetzel’s admission that he had a prior sexual encounter
with Victim was relevant to show bias, Campbell could not articulate to the trial court (despite
being asked), and has not explained here, why Stetzel’s sexual encounter with Victim would give
Stetzel a motive to fabricate testimony about Campbell’s appearance, demeanor, and comments
when the two interacted in the dormitory lounge after Campbell left Victim’s room. Notably,
Campbell admits having sexual intercourse with Victim. He disputes only whether the intercourse
was consensual. We fail to see how Stetzel’s trial testimony materially impacted the determination
of that issue. And we fail to see how Stetzel’s prior sexual encounter with Victim would have
motivated him to fabricate what he claimed to have observed when he spoke with Campbell.
[16] [17] [18]

“Trial courts have broad discretion in limiting the scope of cross-examination.” Raines,
118 S.W.3d at 213 (citing State v. Dunn, 817 S.W.2d 241, 245 (Mo. banc 1991)). “ ‘[T]rial judges
retain wide latitude insofar as the Confrontation Clause is concerned to impose reasonable limits
on ... cross examination based on concerns about, among other things, harassment, prejudice,
confusion of the issues, the witness’ safety, or interrogation that is repetitive or only marginally
relevant.’ ” Id. at 214 (quoting Delaware v. Van Arsdall, 475 U.S. 673, 679, 106 S.Ct. 1431, 89
L.Ed.2d 674 (1986)). Here, the trial court could reasonably have concluded that the connection
between Stetzel’s purported bias and his prior sexual encounter with Victim was tenuous at best,
and that there was a significant risk that permitting cross-examination of Stetzel about his prior
sexual encounter with Victim after both had been drinking would thwart the purpose of the rape
shield law.5 “The theory of the rape shield statute, that prior sexual activity is not probative of the
issue of rape unless one of the statutory exceptions obtains, applies not only to the victim’s
testimony on cross-examination but also to the testimony of other witnesses.” State v. Madsen,
772 S.W.2d 656, 661 (Mo. banc 1989). Here, the trial court “was entitled to balance the policy
behind the rape shield statute against the attenuated inference [Campbell] sought to draw.” Id.
*790 [19]Campbell argues that section 491.015.2 permits the admission of prior sexual conduct of
a victim if it is independently relevant, and that impeachment evidence is always relevant. We
have already explained, however, that section 491.015.2 does not supply an independent statutory
basis for admitting specific instances of a complaining witness’s sexual conduct, and instead must
be read in conjunction with the exceptions described in section 491.015.1(1)-(4), none of which
are argued by Campbell to apply. Jones, 716 S.W.2d at 800.
Campbell also cites State v. Murray, 842 S.W.2d 122 (Mo. App. E.D. 1992) and State v. Lampley,
859 S.W.2d 909 (Mo. App. E.D. 1993) for the proposition that section 491.015 can never be
applied to deprive a defendant of the constitutional right to impeach witnesses by crossexamination. Neither case stands for that broad proposition.
In Murray, the court held that evidence of a defendant’s prior sexual conduct with the victim was
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

22a

22

State v. Campbell, 600 S.W.3d 780 (2020)

admissible because the evidence qualified under one of the statutory exceptions set forth at section
491.015.1(1)-(4). Murray, 842 S.W.2d at 123-25 (evidence of prior sexual conduct between
defendant and victim may be admissible to show consent under section 491.015.1(1)). Here,
unlike Murray, the evidence Campbell sought to introduce did not qualify under an exception to
section 491.015.1.
In Lampley, the court held that evidence of a victim’s prior sexual abuse complaint was admissible
because the evidence did not involve a specific instance of a complaining witness’ sexual conduct,
rendering section 491.015 inapplicable. Lampley, 859 S.W.2d at 911-12. Here, unlike Lampley,
section 491.015.1 plainly applied to the evidence Campbell hoped to elicit from Stetzel on crossexamination.
Campbell also relies on State v. Douglas, 797 S.W.2d 532, 535 (Mo. App. W.D. 1990) for the
proposition that the rape shield law must yield on every occasion to a defendant’s right to impeach
witnesses. Douglas does not stand for this sweeping proposition. Douglas did recognize that “a
rule of evidence, whether it has its origin in statute ... or in common law ... may not be narrowly
or mechanistically applied to deprive a defendant of rights to confront and cross-examine
witnesses and to call witnesses in his own defense, both rights essential to due process and
guaranteed by the Fourteenth Amendment.” Id. at 535. In applying this principle, Douglas
recognized a limited exception to strict application of section 491.015 where a defendant seeks to
present evidence to directly contradict specific evidence introduced by the State to prove a
defendant’s guilt. Id. at 534-35. See State v. Sales, 58 S.W.3d 554, 559 (Mo. App. W.D. 2010)
(holding that “[t]he limited holding in Douglas was that if the state seeks to introduce evidence to
prove a defendant’s guilt or draw for the jury an inference from which to show a defendant’s guilt,
the rape shield statute may not be used to prohibit the defendant from introducing contrary
evidence without violating a defendant’s constitutional right to a fair trial”). The limited exception
described in Douglas, which effectively prevents the State from using the rape shield law as both
a sword and a shield, is of no application here.
There was no error, plain or otherwise, in denying Campbell the right to cross-examine Stetzel
regarding his prior sexual conduct with the Victim for the purpose of impeachment. The trial
court’s ruling did not violate Campbell’s rights under the Confrontation Clause.
Point Two is denied.

*791 Point Three
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

23a

23

State v. Campbell, 600 S.W.3d 780 (2020)

[20]

Campbell’s third point on appeal argues that the trial court plainly erred by permitting the State
to present evidence of a sexual encounter between Campbell and a man the day before Campbell’s
encounter with Victim because the evidence violated section 491.015, and Campbell’s due process
right to a fair trial because the evidence was more prejudicial than probative. Though this evidence
was the subject of motions in limine filed by Campbell and denied by the trial court, Campbell
did not object when the evidence was discussed and presented at trial. Campbell concedes that his
claim of error is not preserved for our review and is at best subject to plain error review.
We have already explained that plain error review involves a two-step test. Ellis, 538 S.W.3d at
337. Campbell has failed to demonstrate evident, obvious, and clear error.
Campbell argues that the trial court erred by permitting the introduction of evidence that Campbell
had been subjected to an unwanted sexual encounter with a man the day before the charged
conduct involving Victim. In closing, the State argued the encounter “gave [Campbell] a reason,
a motive to assert his heterosexuality so [Campbell] could prove to himself that he [was] not gay.”
Campbell asserts that it was error to permit the introduction of the evidence because his “case
turned almost exclusively on the relative credibility” of Campbell and the Victim and evidence of
the encounter “improperly weighted the balance against him.” [Appellant’s Br., p. 28] Campbell
relies on the “rationale” of section 491.015, which he argues should apply “as strongly to [ ]
Campbell, as a defendant, as it does to a complaining witness.”
Campbell cites no authority for the argument that section 491.015’s rationale applies to anyone
other than the complaining witness in a criminal proceeding, and provides us with no explanation
for the absence of supportive authority. On that basis alone, we are justified in deeming his point
on appeal abandoned. Matter of Williams, 573 S.W.3d 106, 118-19 (Mo. App. W.D. 2019) (“[A]
reviewing court is justified in considering a point abandoned if there is no authority or no
explanation as to why authority is not available.”). In any event, the plain language of section
491.015 belies Campbell’s contention, as the statute only excludes “evidence of specific instances
of the complaining witness’ prior sexual conduct.” (Emphasis added.) The rationale behind
section 491.015 supports construing the statute exactly as it is written.
The thinking behind the enactment of [section 491.015] undoubtedly was threefold. First, it
redressed the faulty premise upon which evidence of prior sexual conduct traditionally had been
admitted [under the view that ‘a woman of unchaste character was more likely to consent to an
act of sexual intercourse than a woman strictly virtuous’]. Second, it is apparent that in most
instances a rape victim’s past conduct has no reasonable bearing upon the issue of consent or
credibility. Introduction of such evidence serves only to humiliate and embarrass the witness in
a public “fishing expedition” which puts the complainant on trial instead of the appellant.
Section 491.015, thus, reflects a major public policy decision that “victims” not be subjected to
unwarranted psychological and emotional abuse. Lastly, the statute demonstrates a reasonable
and proper attempt to aid effective law enforcement by encouraging victims of rape to report
and prosecute such crimes without a threat to expose intimate details of past sexual activity, if
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

24a

24

State v. Campbell, 600 S.W.3d 780 (2020)

any, to the public.
*792 State v. Brown, 636 S.W.2d 929, 933 (Mo. banc 1982) (internal citations omitted) repudiated
by State v. Jones, 716 S.W.2d 799 (Mo. banc 1986) on other grounds. This rationale is not served
by extending the protective reach of the rape shield statute to criminal defendants. Nor would it
be the province of this court to do so. State v. Samuels, 88 S.W.3d 71, 82 (Mo. App. W.D. 2002)
(“It is not the province of this court to carve out more exceptions than the legislature saw fit to
include in [a] statute.”).
We cannot convict the trial court of evident, obvious, and clear error where there is no authority
to support applying section 491.015 to exclude evidence of a specific instance of Campbell’s
sexual conduct. Because Campbell cannot establish the first prong required for plain error review,
we need not address Campbell’s argument that the evidence resulted in a manifest injustice.6
Point Three is denied.

Point Four
[21]

Campbell’s fourth point on appeal asserts that the trial court plainly erred by permitting Lahey
to testify that she volunteered to go in to Victim’s room to look for Campbell’s water bottle
because she did not think “it was appropriate for [Campbell] to enter” the victim’s room at night.
Campbell argues this was improper lay witness opinion testimony that “was not relevant to any
issue before the court and not based on any special knowledge [Lahey] possessed.” [Appellant’s
Brief, p. 31]. Campbell concedes that he did not preserve this claim of error for appellate review
because he did not include the claim of error in his motion for new trial. As such, the claim is
subject to plain error review, at best. Campbell also concedes even if it was error to permit Lahey
to opine about the propriety of his entry into Victim’s room, that error would not independently
warrant reversal, but would instead “contribute[ ] to the cumulative harm to [ ] Campbell of the
various errors in this case.” [Appellant’s Brief, p. 31]
[22] [23] [24]

The trial court did not plainly err. “Generally, a lay witness must state facts from which
the jury forms an opinion and may not testify regarding his or her opinion on a matter in dispute.”
State v. Hutson, 487 S.W.3d 100, 107 (Mo. App. W.D. 2016). But “[a]n exception to the general
rule allows a lay witness to provide an opinion if the witness possesses knowledge that is not
available to the jury and that would be helpful to the jury to determine a disputed issue.” Hutson,
487 S.W.3d at 107. Additionally, “a witness who personally observed events may testify to his
matter of fact comprehension of what he has seen in a descriptive manner which is actually a
conclusion, opinion or inference, if the inference is common and accords with ordinary
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

25a

25

State v. Campbell, 600 S.W.3d 780 (2020)

experiences of everyday life.” Id. “Such practice is justified by convenience as a ‘short-hand
rendition of a composite situation’ and by necessity to avoid losing evidence where it would be
extremely difficult or impossible for the witness to convey an accurate sense of his or her
observations if limited to a statement *793 of facts in the traditional sense.” Id. (citing State v.
Davidson, 242 S.W.3d 409, 413 (Mo. App. E.D. 2007)).
Here, Lahey explained why she volunteered to enter Victim’s room to retrieve Campbell’s water
bottle. Lahey’s “matter of fact” testimony regarding her motivation for entering Victim’s room
on Campbell’s behalf was arguably not a lay opinion at all, and instead merely an admissible
explanation for her decision to enter Victim’s room on Campbell’s behalf. See, e.g., State v.
Edwards, 365 S.W.3d 240, 253 (Mo. App. W.D. 2012) (holding that a witness’s testimony that
she “believed” a victim was not an opinion on credibility and was instead an explanation for the
witness’s decision to terminate an interview with the victim).
Even if Lahey’s testimony could be characterized as a plainly erroneous lay opinion (which we
do not hold), Campbell concedes admission of the testimony, standing alone, would not support
reversal of his conviction. State v. Capozzoli, 578 S.W.3d 841, 845 (Mo. App. W.D. 2019)
(holding that an abuse of discretion in admitting evidence will not support reversal unless “the
error was so prejudicial that it deprived the defendant of a fair trial ... [because] when considered
with and balanced against all of the evidence properly admitted, there is a reasonable probability
that the jury would have reached a different conclusion without the error”). As we explain in this
Opinion, there are no other errors to cumulate with this claimed error. As such, error, if any,
associated with the admission of Lahey’s lay opinion would not warrant reversal.
Point four is denied.

Point Five
[25]

Campbell’s fifth point on appeal argues that the trial court erred in overruling his objection to
a statement made by the State during its rebuttal closing argument. Campbell asserts the State
argued that in order to acquit Campbell, the jury would have to believe that Victim “made it all
up,” and that the argument improperly shifted the burden of proof to Campbell.
[26] [27] [28]

“The trial court maintains broad discretion in controlling closing argument.” State v.
Deck, 303 S.W.3d 527, 540 (Mo. banc 2010). “A conviction will be reversed only if it is
established that the complained of comments had a decisive effect on the jury’s determination.”
State v. McClain, 824 S.W.2d 103, 105 (Mo. App. E.D. 1992). “Closing arguments must be
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

26a

26

State v. Campbell, 600 S.W.3d 780 (2020)

examined in the context of the entire record.” Deck, 303 S.W.3d at 541.
During closing argument, Campbell’s counsel attacked Victim’s credibility, suggesting that
Victim misrepresented how much alcohol she had consumed. Defense counsel also argued that
Victim’s account of the evening only “gelled” into a more definite account after discussing the
event with her friends the following morning. Defense counsel also suggested that other State
witnesses were biased.
During the rebuttal portion of the State’s closing argument, the prosecutor noted that some of
Campbell’s witnesses’ accounts corroborated Victim’s account of the interaction with Campbell.
The prosecutor then compared Campbell’s account of the interaction with the evidence offered by
the State’s witnesses, and noted how the State’s witnesses corroborated the Victim’s testimony.
In this context, the prosecutor argued: “[Victim] will never forget the fact that the Defendant raped
her. To find him not guilty, you would really have to believe that [Victim] made all of this up, and
there is no credible evidence for that.” Campbell objected on the basis that the argument misstated
the law and evidence. *794 The trial court overruled the objection, but issued a curative instruction
advising the jury to “remember the evidence as they recall it and to follow the instructions that
the Court has read to you and that you will be given.”
Campbell contends that the State’s argument during rebuttal closing was a misstatement of law
and had a decisive effect on the jury’s determination. Specifically, Campbell contends that the
State’s argument shifted the burden of proof to Campbell. We disagree.
[29] [30]

“[A] prosecutor is allowed to comment on witnesses’ credibility during closing argument.”
State v. Chism, 252 S.W.3d 178, 188 (Mo. App. W.D. 2008). Alongside witness credibility, a
prosecutor can also argue, “the evidence, [and] the reasonable inferences from that evidence.”
Hays v. State, 484 S.W.3d 121, 136 (Mo. App. W.D. 2015).
Statements similar to the one made by the State in this case have been frequently reviewed and
approved by our courts in other cases. See State v. McClain, 824 S.W.2d 103, 106 (Mo. App. E.D.
1992) (prosecutor’s argument that for the jury to find defendant not guilty, the jury would have to
believe that all of the State’s witnesses were lying was not improper because “[a] prosecutor has
the right to comment on the evidence and the credibility of witnesses from the State’s standpoint
during closing argument”);7 State v. Chism, 252 S.W.3d 178, 189 (Mo. App. W.D. 2008) (holding
that it was not improper for the prosecutor to argue that to find defendant not guilty, the jury would
“have to believe that [a State’s witness] is a liar,” and that other State witnesses lied); State v.
Vanlue, 216 S.W.3d 729, 733-35 (Mo. App. S.D. 2007) (holding that it was not improper for the
prosecutor to argue that to believe defendant’s testimony, the jury would have to find that the
State’s witness was lying); Glass v. State, 227 S.W.3d 463, 473 (Mo. banc 2007) (holding that
trial counsel was not ineffective for failing to object to a prosecutor’s closing argument when the
prosecutor argued that in order to find the defendant not guilty the jury “must believe that everyone
who came in here lied to you,” because the argument did not improperly shift the burden of proof
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

27a

27

State v. Campbell, 600 S.W.3d 780 (2020)

to the defense). In each of these cases, our courts have concluded that the State is entitled to argue
relative witness credibility, and that by doing so, the State is not misstating the law or the evidence.
The present case cannot be distinguished from this settled authority.
The trial court did not err in overruling Campbell’s objection to the State’s rebuttal closing
argument.
Point Five is denied.

Point Six
[31]

Campbell’s sixth point on appeal argues that the trial court erred when it prohibited Campbell’s
use of a “flip chart” during closing argument to discuss the beyond a reasonable doubt standard.
Campbell’s flip chart sought to quantify the meaning of the phrase “beyond a reasonable *795
doubt” by characterizing it as a progressive continuum beginning with definitely no; probably no;
possibly yes; probably yes; highly likely; or beyond a reasonable doubt. Campbell contends that
by denying Campbell’s counsel “the right to make proper argument, the trial court infringed” on
his Sixth Amendment right to counsel.
[32] [33] [34]

We review a trial court’s rulings during closing argument for an abuse of discretion.
State v. Tate, 561 S.W.3d 483, 490 (Mo. App. E.D. 2018). The trial court has a duty to restrict
arguments that misstate the law. Holmsley, 554 S.W.3d at 410. “Missouri courts have held counsel
may refer to the instructions given by the court during closing argument, but counsel may not
directly or indirectly, ask the jury to disregard the instructions, give different instructions, or
mislead the jury as to the meaning of the instructions.” Id. “An attorney is free to discuss
reasonable doubt during closing arguments, but he cannot attempt to define reasonable doubt.”
State v. Muhammad, 478 S.W.3d 468, 477 (Mo. App. W.D. 2015).
Campbell does not argue that the trial court improperly instructed the jury on the definition of
beyond a reasonable doubt. Instead, Campbell argues that his right to counsel was “infringed”
because he was restrained from utilizing a flip chart to further discuss the meaning of beyond a
reasonable doubt. Campbell cites no authority supporting such a practice, which plainly sought to
elaborate on the definition of beyond a reasonable doubt.8 In fact, all authority on the subject is to
the contrary. See, e.g., State v. Williams, 659 S.W.2d 778, 781 (Mo. banc 1983) (holding that “[a]n
attorney is free to discuss reasonable doubt during closing argument ... but he cannot attempt to
define reasonable doubt”) (citations omitted); Galindo v. State, 30 S.W.3d 900, 902-04 (Mo. App.
S.D. 2000) (admonishing a prosecutor for an improper attempt during voir dire to “quantitate”
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

28a

28

State v. Campbell, 600 S.W.3d 780 (2020)

“reasonable doubt” and “proof beyond any doubt in your mind whatsoever” by “placing them on
some sort of spectrum or continuum,” as the effect was “an attempt to flesh out the statutory
definition given by the trial court in the State’s favor”).
Campbell attempts to justify the flip chart he sought to use as “simply the converse” of discussion
of the concept of beyond a reasonable doubt that our courts have authorized. In fact, there are
cases which have found certain comments about “beyond a reasonable doubt” to constitute
appropriate “discussion” of the standard, as distinguished from an improper attempt to define the
standard. See, e.g., State v. Overkamp, 646 S.W.2d 733, 738 (Mo. banc 1983) (finding no error
when prosecutor argued that reasonable is what the jurors determine it to be, and suggesting that
the *796 jurors should apply common sense to determine what is reasonable); State v. Wilbon,
561 S.W.2d 133, 134 (Mo. App. S.D. 1978) (finding no error when prosecutor stated that not
every doubt is a reasonable doubt); Eaton v. State, 75 S.W.3d 370, 374 (Mo. App. S.D. 2002)
(finding no error when prosecutor told jurors not to “check your common sense” when they
entered the deliberation room); State v. Hammond, 578 S.W.2d 288, 290 (Mo. App. E.D. 1979)
(finding no error when prosecutor stated that reasonable doubt must be based on reason); State v.
Brown, 822 S.W.2d 529, 531 (Mo. App. E.D. 1991) (finding that discussion of reasonable doubt
in context of elements of charged offense was permissible). And there are cases where improper
comments about the definition of beyond a reasonable doubt have been determined not to rise to
the level of reversible error. See, e.g., State v. Giannico, 642 S.W.2d 651, 654 (Mo. banc 1982);
State v. Burnfin, 606 S.W.2d 629, 631 (Mo. banc 1980); State v. Geer, 624 S.W.2d 143, 147 (Mo.
App. W.D. 1981). But there are no cases cited by Campbell or located by this court which have
concluded that a trial court abuses its discretion when it prohibits counsel from discussing what is
meant by “beyond a reasonable doubt,” particularly when the planned discussion so plainly
crosses the line into an attempt to define or elaborate on the MAI-CR authorized definition of the
standard.
The trial court did not err by prohibiting Campbell from using a flip chart during closing argument
that would have elaborated on the definition of beyond a reasonable doubt by placing the standard
on a continuum amongst other standards selected by Campbell.9
Point Six is denied.

Conclusion
The trial court’s Judgment is affirmed.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

29a

29

State v. Campbell, 600 S.W.3d 780 (2020)

All concur
All Citations
600 S.W.3d 780
Footnotes
1

We view the evidence in the light most favorable to the jury verdict, disregarding all contrary evidence and inferences. See State v.
Brand, 309 S.W.3d 887, 890 n. 2 (Mo. App. W.D. 2010).

2

All statutory references are to RSMo 2000 as supplemented through the date of the offense in January 2016 unless otherwise
indicated.

3

The protections provided by Section 18(a) of the Missouri Constitution are coextensive with those of the Sixth Amendment. State v.
Hester, 801 S.W.2d 695, 697 (Mo. banc 1991).

4

The only authority cited by Campbell in his section 491.015 pre-trial motion was State v. Gerhart, 129 S.W.3d 893 (Mo. App. W.D.
2004). In Gerhart, the court held that a trial court erred in excluding evidence in reliance on 491.015 when that statute did not apply
because the evidence sought to be admitted did not involve a specific instance of sexual conduct, but instead “related to the collateral
consequence of the alleged sexual acts that were already in evidence.” Gerhart, 129 S.W.3d at 897. Because section 491.015 was
determined not to apply to the evidence at issue in Gerhart, Gerhart is of no relevance to this case.

5

Campbell has not argued that he should have been permitted to cross-examine Stetzel because Stetzel had given prior inconsistent
statements under oath.

6

Campbell cites to several cases that purportedly hold that the improper admission of evidence may result in manifest injustice
warranting reversal. The basis for reversal in each of those cases depended on improperly admitted evidence. See State v. Presberry,
128 S.W.3d 80 (Mo. App. E.D. 2003); State v. Sykes, 569 S.W.2d 258 (Mo. App. S.L. 1978); State v. Gantt, 644 S.W.2d 656 (Mo.
App. W.D. 1982); State v. Matthews, 552 S.W.3d 674 (Mo. App. W.D. 2018); State v. Allen, 274 S.W.3d 514 (Mo. App. W.D. 2008).
Here, Campbell has failed to develop a legal basis that would support a conclusion that the introduction of the challenged evidence
was improper. Thus, the cases he relies on to demonstrate manifest injustice are unavailing.

7

Campbell suggests in his reply brief that the court’s holding in McClain was predicated on the fact the appellant did not present any
evidence or testify in his defense during trial. 824 S.W.2d at 105-06. Campbell’s reading of McClain is misguided. In a separate
point relied, the appellant in McClain argued that a prosecutor’s comments on the State’s uncontroverted evidence constituted an
impermissible reference to the appellant’s right to testify. Id. at 105. The court rejected the argument. Id. However, the court in
McClain never suggested that comments about uncontroverted evidence had any bearing on the holding regarding the propriety of
the credibility statements made by the prosecutor during closing. Id. at 105-06.

8

Campbell relies on State v. Barton, 936 S.W.2d 781 (Mo. banc 1996) for the proposition that his right to counsel was infringed by
the restriction imposed on his closing argument. Campbell argues that Barton permitted the use of a visual aid to illustrate a timeline.
Campbell misrepresents the facts and analysis of Barton.
In Barton, there is no discussion of a visual aid. Rather, trial counsel attempted to argue evidence in terms of a time line. Barton, 936
S.W.2d at 783-94. The prosecution objection on grounds that the argument was not supported by evidentiary inference. Id. The trial
court sustained the State’s objection. Id. Our Supreme Court reversed and held that counsel’s argument was a permissible argument
based on the facts and that the trial court had abused its discretion by excluding the argument. Id.
Here, Campbell’s use of a flip chart was not based on an evidentiary argument, but was instead an attempt to use a visual aid to
explain the definition of “beyond a reasonable doubt.” Barton is of no relevance.

9

Campbell had used a similar flip chart during closing argument in his first trial, apparently without objection. That, however, has no
bearing on whether the trial court properly prohibited use of the flip chart in Campbell’s second trial.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government
Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

30a

30

State v. Campbell, 600 S.W.3d 780 (2020)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

31a

31

Missouri Court of Appeals
WESTERN DISTRICT

March 31, 2020

IMPORTANT NOTICE
To: All Attorneys of Record

Re: STATE OF MISSOURI, RESPONDENT,
vs.
AUSTIN JOSEPH CAMPBELL, APPELLANT.
WD82209

Please be advised that Appellant’s motion for Rehearing is OVERRULED and motion for transfer to
Supreme Court is DENIED. See Rule 83.04.

Susan C. Sonnenberg
Clerk

cc:

DANIEL NEAL MCPHERSON
ELIZABETH UNGER CARLYLE

32a

Supreme Court of Missouri
en banc
SC98475
WD82209
May Session, 2020

State of Missouri,
Respondent,
vs. (TRANSFER)

Austin Joseph Campbell,
Appellant.

Now at this day, on consideration of the Appellant’s application to transfer the aboveentitled cause from the Missouri Court of Appeals, Western District, it is ordered that the
said application be, and the same is hereby denied.
STATE OF MISSOURI-Sct.
I, Betsy AuBuchon, Clerk of the Supreme Court of the State of Missouri, certify that
the foregoing is a full, true and complete transcript of the judgment of said Supreme Court,
entered of record at the May Session, 2020, and on the 30th day of June, 2020, in the aboveentitled cause.
IN TESTIMONY WHEREOF, I have hereunto set my
hand and the seal of said Court, at my office in the City of
Jefferson, this 30th day of June, 2020.

, Clerk

, Deputy Clerk
33a

INSTRUCTION NO.

---

As to Count I, if you find and believe from the evidence beyond a reasonable doubt:
First, that on or about January 18, 2016, in the County of Boone, State of Missouri,
the defendant had sexual intercourse with K.K

and

Second, that defendant did so while 1 K.K.
because of a temporary physical condition in which .

was an incapacitated person

K.K.

was unconscious, and

Third, that defendant did so knowingly,
then you will find the defendant guilty under Count I of rape in the first degree.
However, unless you find and believe from the evidence beyond a reasonable doubt each
and all of these propositions, you must find the defendant not guilty of that offense.
As used in this instruction, the term "incapacitated" means that physical or mental
condition, temporary or permanent, in which a person is unconscious, unable to appraise the nature
of such person's conduct, or unable to communicate unwillingness to an act.
As used in this instruction, the term "knowingly" means a person knew, or acts knowingly,
or with knowledge,
(a) with respect to his or her conduct or to attendant circumstances when the person
is aware of the nature of his or her conduct or that those circumstances exist, or
(b) with respect to a result of a person's conduct when he or she is aware that his
or her conduct is practically certain to cause that result.
As used in this instruction, the term "sexual intercourse" means any penetration, however
slight, of the female sex organ by the male sex organ, whether or not an emission results.

34a

